 
 
 
 


 
 
Office of Inspector General 


November 30, 2012

MEMORANDUM

TO:       	          USAID/Guinea, Nancy Estes

FROM: 	              RIG/Dakar, Gerard Custer /s/

SUBJECT:	            Review of USAID/Guinea’s Rural Microenterprise Development Project (Report
                     No. 7-675-13-001-S)

This memorandum transmits our final report on the review. We have considered carefully your
comments on the draft report and have included them in their entirety in Appendix II.

The final report includes five recommendations to improve the management and oversight of
USAID/Guinea’s Rural Microenterprise Development Project. On the basis of actions that the
mission has taken, we determined that final action has been achieved on Recommendations
1, 2, and 5.

A management decision was reached on Recommendations 3 and 4. Please provide the Audit
Performance and Compliance Division in the USAID Office of the Chief Financial Officer with
the necessary documentation to achieve final action.

I want to express my appreciation for the cooperation and courtesy extended to my staff during
the review.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
http://oig.usaid.gov
 



SUMMARY OF RESULTS 

The West African nation of Guinea has spent many of its 54 years in the grip of authoritarian
leaders. As a result, a country replete with mineral and agricultural resources ranks among the
ten poorest in the world; according to Oxford University’s Multidimensional Poverty Index,
almost 63 percent of Guineans live in severe poverty.

The outlook seemed to improve, however, after Guinea held what many observers called its first
credible presidential elections in 2010. The following year USAID/Guinea provided a
$1,995,224 cooperative agreement to Opportunities Industrialization Centers Guinea
(OIC Guinea)1 to support the Guinea Rural Microenterprise Development Project, which aimed
to help 772 farmers in the Fouta Djallon highlands located in the center of the country.
According to the agreement, 563 of the farmers were women “who will use the project support
to expand [and] improve their production and efficiency while developing marketing skills and
increased profits.” The project would work also with six microenterprises formed by groups
such as beekeepers, ginger growers, and weavers, as well as with five local banks.

The effective date of the agreement is December 1, 2011, and the estimated completion date is
November 30, 2016. As of August 10, 2012, USAID/Senegal—as the accounting station for
USAID/Guinea—had obligated $1,995,224 and spent $275,573 on behalf of USAID/Guinea.

USAID/Guinea found problems during a financial review of its activities and asked the Regional
Inspector General/Dakar (RIG/Dakar) to determine whether the mission had identified and
addressed risks related to the cooperative agreement with OIC Guinea. RIG/Dakar found that
while the mission identified some risks and prevented potentially fraudulent, inefficient actions,
others could have been prevented if the procurement process had been implemented properly.
Furthermore, the following implementation problems need to be addressed.

      The mission did not maintain adequate award files (page 3). The files were missing
       important documents, such as concept papers from potential implementers and mission
       employees’ evaluations of them.

      The mission did not monitor the project well (page 4). The agreement contained an
       unusually large advance, the work plan was not approved, the list of key personnel was not
       correct, and the budget contained errors.

The review recommends that USAID/Guinea:

1. Review award files periodically for a complete history of award transactions, document
reviews, and corrective actions taken (page 4).

2. Establish a procurement plan outlining procedures for soliciting and receiving proposals, and
for selecting members of the technical evaluation committee (page 4).



                                                            
1
   OIC Guinea is an affiliate of OIC International, a Philadelphia-based nonprofit that works “to build self-
reliance and entrepreneurship through technical and vocational skills development.”
  


                                                                                                                1
 


3. Amend the cooperative agreement with OIC Guinea replacing Sections A.3.4 and
A.3.5 regarding advances with a provision for a normal advance (page 5).

4. Approve OIC Guinea’s activity monitoring plan (page 5).

5. Require OIC Guinea to submit a request for approval of key personnel (page 5).

Detailed findings appear in the following section. Appendix I contains information on the scope
and methodology. USAID/Guinea’s management comments are included in their entirety in
Appendix II, and our evaluation of mission comments is included on page 6 of the report.




                                                                                             2
 



REVIEW RESULTS 

Award Files Were Not Maintained
Adequately
Federal Acquisition Regulation (FAR) 4.801 (b) states that documentation in contract files
should constitute a complete history of the transaction; provide a complete background for
decisions made; support actions taken; and give information for reviews, investigations,
litigation, or congressional inquiries.

According to Automated Directives System (ADS) 303.3.14, “Designation of the Agreement
Officer’s Representative [AOR],” the agreement officer must appoint a representative—and an
alternate if applicable—as early in the award process as practical. The officer must use a
designation letter to define the scope of authority that the AOR has to carry out grant or
cooperative agreement administration duties, which would otherwise be the officer’s
responsibility.

USAID/Guinea did not maintain adequate official award files, and some historical information
was not available for review. The files were missing critical documents, such as the concept
papers from potential recipients that members of the technical evaluation committee (TEC)
received and reviewed and evaluation sheets. the review team did not find documents in the
files that justified why OIC Guinea changed a member of its staff. The mission did not clearly
document a staff member’s designation as the local Development Grants Program (DGP)2
representative. Neither the senior agreement and assistance specialist nor the deputy program
director had the e-mail correspondence with DGP/Washington that designated the local
program representative as chairman of the TEC also. Further, the agreement officer did not
properly designate the first AOR for the project, as required.

Several factors contributed to this lack of documentation. Among them were staff turnover and
absences in the mission’s Office of Acquisition and Assistance (OAA). The agreement officer
who began the procurement process for this award did not leave any records or maintain any of
the concept papers. The current senior agreement and assistance specialist did not seem to
understand the award process and provided inconsistent responses to the review team’s
inquiries.

Mission officials said there was no documented delegation of authority because the deputy
program officer appointed himself the mission’s DGP representative, TEC chairman, and AOR
for the program. These actions, coupled with the fact that he asked that the award agreement
include an unjustified advance of 30 percent, undermined the project’s internal control structure
and significantly increased the risk of fraud, waste, and abuse.

Though it is unclear whether OAA or the program office received the concept papers since none
were in the files, it is our view that the program office was too involved in the procurement
process.

                                                            
2
 According to the Agency’s Web site, the Development Grants Program “is a multimillion dollar annual
grant program focused on building and expanding partnerships with U.S. and local, in-country
organizations that have little direct experience in working with USAID.”


                                                                                                       3
 


Without access to all the concept papers received and the evaluation sheets for the three that
the TEC reviewed, the mission could not ensure that it gave all qualified applicants an equal
opportunity to compete for this award. Further, documentation and periodic reviews of files are
basic tools available to managers to help provide continuity of operations and to be certain that
federal resources are protected and used appropriately. Maintaining adequate documentation
is important for historical purposes, especially when the responsibility for a program changes
hands. As a prudent internal control, the mission should establish procedures to verify that all
award files are comprehensive and maintained.           Accordingly we make the following
recommendations.

       Recommendation 1. We recommend that USAID/Guinea review award files
       periodically for a complete history of award transactions, document reviews, and
       note for corrective action.

       Recommendation 2. We recommend that USAID/Guinea improve the
       procurement plan outlining procedures for soliciting and receiving proposals, and
       for selecting members of the technical evaluation committee.

Project Monitoring Was Weak
According to ADS 303.2(d), the agreement officer is legally responsible for the award.
Therefore, only he or she can enter into, change, or terminate an award on behalf of USAID.
ADS 303.2(f) states that AORs are responsible for monitoring and evaluating the recipient and
its performance during the award. The AOR should carry out these responsibilities by
maintaining contact with the implementer; confirming through site visits that it complies with the
terms and conditions of the award; reviewing and analyzing reports; and verifying timely
performance, including meeting reporting requirements.

During the review, RIG/Dakar observed several problems, which are discussed below.

	 An inappropriate clause authorizing the payment of an advance of 30 percent of the award
   ($598,567) was included in the agreement after it was negotiated. The senior agreement
   and assistance specialist said he added the advance because the deputy program director
   asked him to.

	 As of August 18, 2012—8 months after the activities began—USAID/Guinea had not
   approved the work plan. Without that approved plan, the mission has no baseline to
   determine whether the activities were approved and how they support the overall project
   objective.

	 OIC Guinea replaced the project manager who was listed in the agreement before the
   project began, yet it failed to notify the mission of this change. Due to the lack of monitoring,
   USAID/Guinea missed the opportunity to enforce the award terms that required the mission
   to approve changes in key personnel.

	 OIC Guinea’s budget preparation was poor and indicated a lack of knowledge of USAID
   policies. For example, although all costs are paid by USAID, OIC included a negotiated
   indirect cost rate in its budget, which is in violation of Contract Information Bulletin 92-17,




                                                                                                  4
 


       “Indirect Cost Rates.”3 OIC officials said they needed the 30 percent advance to cover costs
       including staff salaries for a year; according to Agency rules, advances normally should be
       used to cover immediate needs. During the final review of the advance request, the
       mission’s Office of Financial Management found the advance request and took appropriate
       action to prevent it from being disbursed. The mission could help OIC Guinea boost its
       knowledge of USAID policies by providing technical assistance up front and by monitoring
       the program in a timely manner.

The program office’s undue involvement in the procurement process, the lack of technical
assistance to build the recipient’s capacity, and weak program monitoring caused all of the
problems outlined above. These problems lessen the confidence that USAID/Guinea should
have in OIC’s ability to avert prospective problems. We make the following recommendations to
help the mission improve its monitoring of the project.

              Recommendation 3.         We recommend that USAID/Guinea amend the
              cooperative agreement with Opportunities Industrialization Centers Guinea to
              delete Sections A.3.4 and A.3.5 regarding advances and replace with a provision
              for a normal advance.

              Recommendation 4.           We recommend that USAID/Guinea approve the
              Opportunities Industrialization Centers Guinea activity monitoring plan.

              Recommendation 5. We recommend that USAID/Guinea ask Opportunities
              Industrialization Centers Guinea to submit a request for approval of key
              personnel.




                                                            
3  
  According to Bulletin 92‐17 (October 31, 1992), indirect costs cannot be identified directly with a single contract or grant.  
                                                                                                                                
Such costs are applied equitably to all of an organization’s business activities, according to the benefits gained from them.  


                                                                                                                                    5
 



EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft review report, USAID/Guinea agreed with the five recommendations.
Summarized below are the comments and the review team’s evaluation of them.

Recommendation 1. The mission implemented a plan for periodic review of award files, and
the AOR of the OIC activity took appropriate action to update the files; additionally the mission
established a procurement team to review all award files. The mission provided the
documented review plan and a sample mission order and checklist that should help staff
members maintain award files with the proper documentation. The mission’s action adequately
addresses the recommendation. Accordingly, Recommendation 1 will be closed on issuance of
this report.

Recommendation 2. The mission has taken actions to strengthen its procurement process. It
updated its procurement plan to make sure proposals are solicited and received properly and
that the TEC includes people with appropriate skills and expertise. The updated plan tracks all
procurement actions, pending clearances and approvals by the OAA. TEC members are now
selected by the OAA at USAID/Senegal and reviewed by the mission director. The actions
taken adequately address the recommendation. Accordingly, Recommendation 2 will be closed
on issuance of this report.

Recommendation 3. The mission agreed to amend the cooperative agreement with
OIC/Guinea to delete Sections A.3.4 and A.3.5 regarding advances and replace it with a
provision for normal advances. The target date for completion is December 31, 2012. Based
on the mission’s described actions, a management decision has been reached.

Recommendation 4. The mission’s AOR is working with the partner to develop an activity
monitoring plan. The target date for completion is March 31, 2013. Based on the mission’s
described actions, a management decision has been reached.

Recommendation 5. The mission stated that the AOR asked the grantee to submit a request
for approval of key personnel, and the agreement officer received that request on November 19,
2012. The mission’s action adequately addresses the recommendation. Accordingly,
Recommendation 5 will be closed on issuance of this report.




                                                                                               6
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Dakar conducted this review in accordance with generally accepted government auditing
standards. They require that we obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions, in accordance with our review objective. We believe that
the evidence obtained provides that reasonable basis.

The purpose of the review was to determine whether USAID/Guinea identified and addressed
the risks in the cooperative agreement with OIC Guinea for the Guinea Rural Microenterprise
Development Project.

As part of the review, we assessed the management controls the mission used to manage the
procurement process and to monitor project activities. The assessment included controls related
to documentation and supervisory review to determine whether USAID/Guinea (1) maintained
proper documentation of award files, (2) required and approved an annual work plan, and
(3) reviewed OIC Guinea’s progress and financial reports.

RIG/Dakar performed the review in Conakry from August 15 to 18, 2012, and subsequently with
the USAID/Guinea’s Financial Management Office in Dakar, Senegal. As of September 18,
2012, USAID/Guinea had obligated $1,995,224 and disbursed $275,573.


Methodology
To answer the review objective, we interviewed officials from USAID/Guinea and OIC Guinea.
We also reviewed and analyzed relevant documents at the mission and OIC Guinea offices. The
documentation included the cooperative agreement, performance management plan, the OIC
Guinea annual budget, monitoring plan, annual work plan, and advance requests. The review
team also reviewed the agreement officer’s files, including the request for application, the
recipient’s application, the action memo requesting approval of OIC Guinea’s project proposal,
the TEC memo, and the agreement officer’s negotiation memo.

The team also reviewed the mission’s compliance with the requirements to document program
performance. Those requirements included ADS Chapters 202, 203, and 303, Contract
Information Bulletin 92-17 and other applicable policies, procedures, and management controls.

We then evaluated the mission’s compliance with the relevant program management controls
and policies.




                                                                                              7
                                                                                   Appendix II



MANAGEMENT COMMENTS 


Date: November 21, 2012

MEMORANDUM

TO:            Gerard Custer, Regional Inspector General (RIG)/Dakar

FROM:          Nancy Estes, Mission Director, USAID/Guinea & Sierra Leone

SUBJECT:       Management Responses to RIG/Dakar Draft Report on Review of OIC Guinea
               Rural Microenterprise Development Activities in Guinea (report No. 7-675-xx-
               xxx-S


On November 7, 2012, USAID/Guinea received the draft report on the subject Review of OIC
Guinea Rural Microenterprise Development Activities in Guinea. We appreciate RIG’s efforts in
quickly responding to the Mission’s assistance request to strengthen USAID/Guinea’s operations
to plan and implement local grants in support of USAIDFORWARD. USAID/Guinea also
appreciates RIG’s support to fully address specific issues identified during the review.

The Mission has already taken significant actions for each recommendation in supporting our
request for management decisions to be issued for all five recommendations. In addition, we are
requesting that recommendations one, two and five be closed upon issuance of the final report.

Details as follows:

Overall, USAID would like to underscore the positive impact the Opportunities Industrialization
Centers (OIC) Guinea Rural Microenterprise Development Activities has made towards
establishing five (5) Small Medium Enterprises, (SME) in the Foutah region of Guinea. Farm
production has doubled and the farmers are transforming their products into other by products.

The following is our response to the review recommendations:

Management Comments – Review of OIC Guinea Rural Microenterprise Development Activities
in Guinea.

Recommendation #1: We recommend that USAID/Guinea develop and implement a
plan for periodic internal review of award files for a complete history of award
transactions. Results of the review should be noted for corrective action.



                                                                                             8
                                                                                      Appendix II


USAID/Guinea concurs with this recommendation, and request that a management decision be
issued and final action taken in the final report. The Mission has developed and implemented a
plan for periodic review of award files for a complete history of award transactions (see
attached). A procurement team led by USAID/Guinea’s Technical Office (TO) have been
established to work in conjunction with OAA and OFM to develop, formulate and implement the
review of all award files. OAA and OFM in conjunction with the TO team has developed a
periodic review plan for all award files. USAID/Senegal provided the Mission with a sample
Mission Order and an Award File checklist which will be utilized to ensure that award files
contain the required documentations based on current ADS policy. The plan has already been
implemented with the new AOR of the OIC activity taking appropriate actions to update the
award files as per ADS policy and as per the findings of the RIG review. Results of the review of
the entire portfolio will be noted for corrective actions.

Recommendation #2: We recommend USAID/Guinea develop and establish a
procurement plan to ensure the proper solicitation and receipt of proposals as well as the
composition of the technical evaluation committee.

USAID/Guinea concurs with this recommendation, request that a management decision be issued
and final action taken in the final report. The Mission has taken actions to strengthen its
procurement process by developing and establishing an updated procurement plan to ensure
proper solicitation and receipt of proposal as well as the composition of the Technical Evaluation
Committee (see attached procurement plan). A procurement plan was developed after issuance of
the OIC grant which tracks all procurement actions, pending clearances and approvals by the
Acquisition and Assistance office in USAID/Senegal. Our technical office lead is working
actively with the Acquisition and Assistance Office (OAA) in Dakar to streamline, improve
oversight and control, and establish a transparent process. In addition, a Procurement Team is in
place which is tasked with improving the Mission’s procurement process. The Technical Office
will lead this process which includes monitoring as part of its oversight mandate. Currently, all
un-solicited proposals some of which are received by the U.S. Embassy are stored and logged by
the Mission’s Program Office (PO) to initiate the review and evaluation process. Once an
unsolicited application is received in the PO (Program Office), it is logged in by the Innovation
Unit’s Administrative Assistant, a section of the Program Office. After log in, the unsolicited
application is given to the Office chief of the PO or his/her designee to conduct a strategic
review. All solicited proposals are received by OAA (Office of Acquisition and Assistance) and
is available only to the TEC (Technical Evaluation Committee) during the selection process. The
TEC members are currently selected by the OAA in USAID/Senegal and reviewed by the
Mission Director. In addition, the Mission has issued Mission Order No. MO 303.3 (Unsolicited
Application) which supersedes MO 303.1 effective November 9, 2012.

Recommendation #3: We recommend that USAID/Guinea amend the cooperative
agreement with OIC/Guinea to delete section A.3.4 and A.3.5 regarding advances and
replace with a provision for normal advance.

USAID/Guinea concurs with this recommendation and request that a management decision be
issued in the final report. Prior to this review, USAID/Guinea’s Office of Financial Management
(OFM) performed a financial review that revealed no justification for the advance of 30 percent



                                                                                                9
                                                                                      Appendix II


of the award amount and recommended an amendment of the Cooperative Agreement (CA).
Action was initiated by the USAID/Guinea’s OAA to amend the agreement and
USAID/Senegal’s OAA is in the process of amending sections, A.3.4 and A.3.5 of the
cooperative agreement regarding advances and replace with a provision for normal advance. On
October 29, 2012, a meeting was held between the AOR and the implementing partner to
discuss, reduction of the scope of work, establishing baseline indicators and developing realistic
and measurable results indicators. Final action taken will be when the CA is amended and
issued. Target completion date is December 31, 2012.

Recommendation #4: We recommend that USAID/Guinea approve the OIC/Guinea activity
monitoring plan.

USAID/Guinea concurs with this recommendation and request that a management decision be
issued in the final report. The Agreement Officer Representative (AOR) is working with the
partner to develop an activity monitoring plan. The plan covering an initial period of three (3)
months will be evaluated and approved by the AOR. Final action taken will be when the Mission
approves the OIC monitoring plan. Target completion date is March 31, 2013

Recommendation #5: We recommend that USAID/Guinea request OIC Guinea to submit a
request for approval of key personnel.

USAID/Guinea concurs with this recommendation, request that a management decision be issued
and final action taken in the final report. Prior to this review, USAID/Guinea’s OFM performed
a financial review that revealed a change in key personnel without prior approval by the
AOR/AO. This finding was further confirmed during the RIG review. The AOR has requested
the grantee (OIC) to submit a request for approval of key. The request was received by the
Agreement Officer on November 19, 2012, and would be approved by Nov. 30, 2012 (see
attached).




                                                                                               10
                                                   




    U.S. Agency for International Development 

           Office of Inspector General 

          1300 Pennsylvania Avenue, NW 

              Washington, DC 20523 

                Tel: 202-712-1150 

                Fax: 202-216-3047 

               http://oig.usaid.gov

                                                   
